No. 20-1453

IN THE

SUPREME COURT OF THE UNITED STATES
CAL CARTAGE TRANSPORTATION EXPRESS, LLC, ET AL.,
Petitioners,
v.
THE PEOPLE OF THE STATE OF CALIFORNIA, ET AL.,
Respondents,

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and that on this 3rd day of June,
2021, I caused the Brief of American Trucking Associations, Inc., California Trucking Association, and National
Private Truck Council as Amici Curiae in Support of Petitioners to be served as indicated below on the individuals
identified below, and caused an electronic version to be transmitted to the individuals identified below, pursuant to
Rule 29 of the Rules of this Court and this Court’s April 15, 2020 Order. All parties required to be served have been
served.

Counsel for Petitioners
Joshua S. Lipshutz
Gibson, Dunn & Crutcher LLP
1050 Connecticut Ave. NW
Washington, DC 20036
JLipshutz@gibsondunn.com
Served electronically pursuant to consent to
email service

Counsel for Respondent People of the State of
California
Danielle L. Goldstein
Office of the Los Angeles City Attorney
200 N. Spring Street, 14th Floor
Los Angeles, CA 90012-4131
danielle.goldstein@lacity.org
Served electronically pursuant to consent to
email service

Pro Se Respondent
Hon. William F. Highberger
Re: Case Nos. BC689320, BC689321,
BC689322
Superior Court of Los Angeles County
312 N. Spring St., Dept. 10
Los Angeles, CA 90012
Served via U.S. Mail

Clerk of Court
Re: Court of Appeal Case No. B304240
California Court of Appeal, Second District,
Division 4
Ronald Reagan State Building
300 S. Spring Street
2nd Floor, North Tower
Los Angeles, CA 90013
Served via U.S. Mail

/s/ Richard Pianka
Richard Pianka

